No. 20-1530
IN THE SUPREME COURT OF THE UNITED STATES
STATE OF WEST VIRGINIA, ET AL.,
Petitioners,
v.
U.S. ENVIRONMENTAL PROTECTION AGENCY AND
MICHAEL REGAN, ADMINISTRATOR OF THE
U.S. ENVIRONMENTAL PROTECTION AGENCY,
Respondents.
On Petition For A Writ of Certiorari
to the United States Court of Appeals
for the District of Columbia Circuit
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.2(b), I certify that the Response of
America’s Power in Support of Certiorari complies with the page limitations as it
contains one (1) page, excluding the parts of the brief that are exempt by Supreme
Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 3, 2021.
ELBERT LIN
Counsel of Record
HUNTON ANDREWS KURTH LLP
951 East Byrd Street, East Tower
Richmond, Virginia 23219
elin@HuntonAK.com
(804) 788-8200
Counsel for Respondent America’s Power

